Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   DIETARY SUPPLEMENTS:
 COMPANIES MAY BE DIFFICULT
 TO LOCATE IN AN EMERGENCY




                    Daniel R. Levinson
                     Inspector General

                      October 2012
                     OEI-01-11-00211
EXECUTIVE SUMMARY: DIETARY SUPPLEMENTS: COMPANIES MAY BE
DIFFICULT TO LOCATE IN AN EMERGENCY
OEI-01-11-00211


WHY WE DID THIS STUDY

The Public Health Security and Bioterrorism Preparedness and Response Act of 2002
requires certain dietary supplement companies to register with the Food and Drug
Administration (FDA). Registration in the Food Facility Registry (the registry) is
intended to provide FDA with sufficient information to contact companies in an
emergency. Previous Office of Inspector General work identified problems with FDA’s
registry. Recent recalls of dietary supplements tainted with prescription drugs, synthetic
steroids, and other potentially dangerous ingredients highlight the importance of
registration and adverse event contact information so that FDA can trace the source of the
product. These problems raised questions about FDA’s ability to identify and contact
manufacturers in a food emergency to protect public health.

HOW WE DID THIS STUDY

We analyzed a purposive sample of 127 weight loss and immune support dietary
supplements. For 123 of these supplements, we determined whether the companies that
produced them were registered with FDA and compared the information in the registry
with information obtained during structured interviews with company representatives.
We also analyzed the labels of all 127 dietary supplements to determine whether they
contained required adverse event contact information.

WHAT WE FOUND

Twenty-eight percent of contacted companies had facilities that failed to register with
FDA as required. Of the companies with facilities that did register, 72 percent failed to
provide the complete and accurate information required in the registry. Finally,
20 percent of dietary supplement labels in our sample did not provide the required
telephone numbers or addresses.

WHAT WE RECOMMEND

We recommend that FDA: (1) improve the accuracy of information in the registry,
(2) seek authority to impose civil monetary penalties on companies that do not comply
with registration requirements, and (3) educate the dietary supplement industry about
registration and labeling requirements. FDA concurred with all of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................7
           Twenty-eight percent of contacted companies failed to register
           with FDA as required .......................................................................7
           Among companies in our sample that registered with FDA,
           72 percent failed to provide complete and accurate information
           required in the registry .....................................................................8
           Twenty percent of dietary supplement labels in our sample did not
           provide the required telephone numbers or addresses .....................9
Conclusion and Recommendations ............................................................ 11
Agency Comments and Office of Inspector General Response.................13
Appendix ....................................................................................................14
           A: Information on Sampled Dietary Supplements and
           Companies......................................................................................14
           B: Agency Comments ...................................................................15
Acknowledgments......................................................................................18
                  OBJECTIVES
                  1. To determine the extent to which selected weight loss and immune
                     support dietary supplement companies are registered with the Food
                     and Drug Administration (FDA) in compliance with the Public Health
                     Security and Bioterrorism Preparedness and Response Act of 2002 (the
                     Bioterrorism Act).
                  2. To determine the extent to which information on selected weight loss
                     and immune support dietary supplement companies in FDA’s registry
                     is complete and accurate.
                  3. To determine the extent to which selected weight loss and immune
                     support dietary supplement labels include required adverse event
                     contact information.

                  BACKGROUND
                  In the United States, dietary supplements are a $20 billion-per-year
                  industry and are used by 80 percent of adults for a wide range of
                  purposes. 1 Products for weight loss or immune system support represent
                  some of the fastest growing segments of the dietary supplement market. 2, 3
                  The Federal Food, Drug, and Cosmetic Act deems dietary supplements to
                  be a category of food and defines them, in part, as products intended to
                  supplement the diet. If a dietary supplement is contaminated or otherwise
                  unsafe, FDA’s ability to quickly locate a company that is able to stop the
                  distribution of the supplement is essential. Recent recalls of dietary
                  supplements tainted with prescription drugs, synthetic steroids, and other
                  potentially dangerous ingredients highlight the importance of registration
                  and adverse event contact information so that FDA can trace the source of
                  the product. 4, 5, 6

                  1
                    Natural Products Foundation, What is the Current Economic Contribution of the Dietary
                  Supplement Industry to the U.S. Economy? Accessed at www.naturalproducts foundation.org
                  on May 31, 2010.
                  2
                    Government Accountability Office, Dietary Supplements for Weight Loss: Limited Federal
                  Oversight Has Focused More on Marketing Than on Safety, GAO-02-985T, July 2002.
                  3
                    Nutraceuticals World, Getting Ahead of the Curve: Immunity, October 1, 2010. Accessed at
                  www.nutraceuticalsworld.com on March 16, 2012.
                  4
                    FDA, Superior Metabolic Technologies Inc. Recalls Uprizing 2.0 Because the Product
                  Contains Superdrol, Which is a Synthetic Steroid, Making it an Unapproved New Drug,
                  October 3, 2011. Accessed at www.fda.gov on February 17, 2012.
                  5
                    FDA, Globe All Wellness, LLC, Issues a Voluntary Recall of Dietary Supplement Found to
                  Contain an Undeclared Drug Ingredient, May 24, 2011. Accessed at www.fda.gov on
                  February 17, 2012.
                  6
                    FDA, Ethos Environmental, Inc., Issues a Voluntary Recall of Specific Lots of the Dietary
                  Supplement Regenerect, April 28, 2011. Accessed at www.fda.gov on February 17, 2012.

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                1
                  The Public Health Security and Bioterrorism Preparedness and Response
                  Act of 2002 (the Bioterrorism Act) requires that food facilities, including
                  dietary supplement companies, register with FDA. 7 Registration is
                  intended to provide FDA with sufficient information to contact companies
                  in an emergency. 8 (The Bioterrorism Act requires facilities, rather than
                  companies, to register, and a company may operate multiple facilities.)
                  Previous Office of Inspector General (OIG) work identified problems with
                  FDA’s Food Facility Registry (the registry). That work found that
                  company contact information in the registry was frequently out of date or
                  incorrect. These problems raised questions about FDA’s ability to identify
                  and contact manufacturers in a food emergency to protect public health. 9
                  Dietary Supplements
                  The Dietary Supplement Health and Education Act of 1994, an
                  amendment to the Federal Food, Drug, and Cosmetic Act, defines a dietary
                  supplement, in part, as a product that is ingested by mouth to supplement
                  the diet and contains one or more of the following ingredients:
                       •    a vitamin;
                       •    a mineral;
                       •    an herb or other botanical;
                       •    an amino acid;
                       •    a dietary substance for use by man to supplement the diet by
                            increasing the total dietary intake; or
                       •    a concentrate, a metabolite, a constituent, or an extract. 10
                  Consumers may purchase dietary supplements over the counter without a
                  prescription. In the absence of a premarket approval requirement for
                  dietary supplements, FDA gathers information about these products from a
                  variety of sources and takes action against adulterated or misbranded
                  supplements after they reach the market. FDA does this by monitoring
                  adverse event reports and consumer complaints, searching the Internet for
                  supplements that do not comply with regulations, conducting onsite



                  7
                    Companies that manufacture, process, pack, or hold food, including dietary supplements, for
                  consumption in the United States must register with FDA before producing or selling their
                  products. P.L. 107-188 § 305(a) (codified at 21 U.S.C. § 350d).
                  8
                    68 Fed. Reg. 58893, 58895 (Oct. 10, 2003): Registration of Food Facilities Under the
                  Public Health Security and Bioterrorism Preparedness and Response Act of 2002.
                  9
                    OIG, FDA’s Food Facility Registry, OEI-02-08-00060, December 2009.
                  10
                     P.L. 103-417 § 3 (codified at 21 U.S.C. § 321(ff)). Other statutory requirements for a
                  dietary supplement include that it may not be represented for use as a conventional food or as
                  a sole item of a meal and that it must be labeled as a dietary supplement.

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                   2
                  inspections of manufacturers or imported shipments of supplements, and
                  reviewing new dietary ingredient notifications. 11
                  Registration of Manufacturers and Distributors
                  Under the Bioterrorism Act, all companies that manufacture, process,
                  pack, or hold food, including dietary supplements, for consumption in the
                  United States must register with FDA before engaging in any of these
                  activities. 12 (Companies that are solely retailers of dietary supplements
                  and do not otherwise manufacture, process, hold, or pack the products are
                  not required to register with FDA. 13) Registration is intended to provide
                  reliable information about these companies. The registry also enables
                  FDA to quickly locate companies during an outbreak of illness caused by
                  contaminated food or supplements and to locate the facilities for
                  inspection. Food and dietary supplement companies must register their
                  contact information with FDA, including the company names, addresses,
                  and emergency contact telephone numbers. 14 Companies must update
                  their registrations within 60 calendar days of any change in the
                  information submitted previously. 15 Currently, some categories of dietary
                  supplements are not required to be identified in the registry; therefore, we
                  could not determine the number of dietary supplement companies in the
                  registry. 16
                  The FDA Food Safety and Modernization Act, enacted in 2011 (FSMA)
                  strengthened registration requirements. 17 Beginning in 2012, companies
                  must renew their registrations every 2 years. 18 In addition, FSMA
                  authorizes FDA to suspend registration of a company if it has reason to
                  believe that a product poses a serious threat to public health. 19
                  FDA does not regularly review or test the data in the registry for accuracy,
                  but has periodically reminded companies through postcards and telephone
                  alerts to maintain accurate information in the registry. FDA uncovers
                  registration violations primarily by inspecting a company’s manufacturing




                  11
                     A new dietary ingredient is an ingredient that was first marketed in the United States after
                  October 15, 1994. 21 U.S.C. § 350b.
                  12
                     21 U.S.C. § 350d(a); FDA’s implementing regulations on the registration of food facilities
                  are located at 21 CFR §§ 1.225–1.243.
                  13
                     21 U.S.C. § 350d(c)(1), 21 CFR §§ 1.226(c), 1.227(b)(11).
                  14
                     21 CFR § 1.232.
                  15
                     21 CFR § 1.234.
                  16
                     21 CFR § 170.3.
                  17
                     P.L. 111-353, § 102, January 4, 2011.
                  18
                     21 U.S.C. § 350d(a)(3).
                  19
                     21 U.S.C. § 350d(b)

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                     3
                  facilities. 20 FDA’s field offices also monitor their regions for unregistered
                  facilities. FDA may notify unregistered facilities of registration
                  requirements during a routine inspection or by letter. If a company
                  continually fails to register as required, FDA may take regulatory action
                  against it by issuing a warning letter, prohibiting the sale of the
                  supplement through an injunction, or referring the matter for criminal
                  prosecution. 21 In the absence of complete information in the registry, FDA
                  may use other sources of contact information to locate a company. 22
                  Adverse Event Reporting and Required Contact Information on
                  Dietary Supplement Labels
                  One way that FDA learns about unsafe dietary supplements is by
                  monitoring adverse event reports. If consumers encounter a problem with
                  a particular supplement, they must be able to quickly report adverse events
                  to a responsible company so that FDA can respond if necessary. 23 To
                  facilitate consumer adverse event reporting, the Dietary Supplement and
                  Nonprescription Drug Consumer Protection Act, enacted in 2006,
                  amended the Federal Food, Drug, and Cosmetic Act to require that dietary
                  supplement labels include the domestic telephone number or address of
                  the dietary supplement firm responsible for receiving adverse event
                  reports for the product and reporting them to FDA. 24 FDA guidance
                  specifies that a complete telephone number must include the area code and
                  a complete address must include the full street address or post office box
                  of the responsible party. 25 The telephone number and address provided on
                  the dietary supplement label are not intended to match those provided in
                  FDA’s registry. Although contact information on the label is intended to
                  provide consumers, health care providers, and others with the means to
                  report an adverse event to a dietary supplement company, it may also be



                  20
                     FDA, Registration of Food Facilities Under the Public Health Security and Bioterrorism
                  Preparedness and Response Act of 2002, Compliance Policy Guide § 110.300, 2003, revised
                  2006.
                  21
                     21 U.S.C. § 331(dd); 21 U.S.C. § 332; 21 U.S.C. § 333; 21 CFR § 1.241. See also FDA
                  Regulatory Procedures Manual. Accessed at www.fda.gov on May 17, 2012.
                  22
                     One such source is the Official Establishment Inventory, a database maintained by FDA to
                  collect information on food, drug, and other types of FDA-regulated facilities for inspection
                  purposes. FDA, Field Management Directives, Official Establishment Inventory Development
                  and Maintenance Procedures, July 17, 2006. Accessed at www.fda.gov on June 21, 2012.
                  23
                     Federal regulations require dietary supplement companies to report serious adverse events
                  to FDA, including death and life-threatening injury. Companies are not required to report
                  minor adverse events. 21 U.S.C. § 379aa-1(b).
                  24
                     P.L. 109-462, § 3(c), codified at 21 U.S.C. § 343(y).
                  25
                     FDA, Guidance for Industry: Questions and Answers Regarding the Labeling of Dietary
                  Supplements as Required by the Dietary Supplement and Nonprescription Drug Consumer
                  Protection Act, December 2007, revised September 2009.

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                   4
                  helpful for FDA when tracing the source of a supplement or responding to
                  adverse event reports.
                  This report is being issued in conjunction with another OIG evaluation
                  report, entitled Dietary Supplements: Structure/Function Claims Fail To
                  Meet Federal Requirements (OEI-01-11-00210). Both reports are based
                  on the same sample of dietary supplements.

                  METHODOLOGY
                  Scope
                  This study assessed the extent to which selected dietary supplement
                  companies registered with FDA and provided complete and accurate
                  information. This study also assessed the extent to which a sample of
                  dietary supplement labels provided required contact information for the
                  purpose of reporting adverse events. This study did not assess FDA’s
                  adverse event reporting system for dietary supplements. This study is
                  limited to the sample of supplements that we purchased.
                  We focused our review of the registry on key information that FDA would
                  likely need to contact a dietary supplement company in an emergency. We
                  included only domestic companies in our analysis and did not attempt to
                  contact companies with foreign telephone numbers and addresses to
                  confirm registration information. The findings are limited to selected
                  companies and are not projectable to all dietary supplement companies
                  subject to FDA’s registration requirements.
                  Data Collection and Analysis
                  We analyzed a purposive sample of 127 dietary supplements that we
                  purchased from retail stores in selected U.S. cities and from various
                  Internet sites. We focused on two types of supplements—immune support
                  supplements and weight loss supplements—after consulting with FDA.
                  Our sample includes 67 immune support supplements and 60 weight loss
                  supplements. We purchased 67 of the supplements from retail stores and
                  60 from Internet sites. (For additional descriptive statistics, see Appendix
                  A.)
                  Supplements Purchased From Retail Stores. We selected five major U.S.
                  cities to achieve a wide regional distribution: New York, Chicago, Dallas,
                  Los Angeles, and Seattle. Within each city, we purchased a minimum of
                  12 unique supplements from a mix of small and large pharmacies,
                  supermarkets, and supplement retailers. We did not seek supplements that
                  appeared to violate FDA regulations, but rather we sought to purchase a
                  variety of weight loss and immune support supplements with a variety of
                  structure/function claims on their labels.


Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   5
                  Supplements Purchased From the Internet. We created a set of search
                  terms related to weight loss or immune support. Using three major search
                  engines, we searched the Internet with these terms. We selected sites and
                  products with the goal of purchasing as many different brands of
                  supplements as possible.
                  Determining Registration Status of Sampled Dietary Supplement
                  Companies. We used the company listed on the product’s label as the first
                  point of contact. We first searched the registry to determine whether the
                  company was registered with FDA. We considered a company to be
                  required to register with FDA if its representative reported that it had at
                  least one facility that manufactured, processed, packed, distributed, or
                  stored dietary supplements.
                  We dropped four dietary supplements from the analysis of FDA’s registry
                  because the companies listed on the labels were located outside the United
                  States. The 123 supplements included in the registry analysis were
                  associated with 106 companies; 13 companies were associated with
                  multiple supplements in the sample.
                  We then attempted to contact each of the 106 companies by telephone to
                  confirm registry information and to administer a structured interview. We
                  used either the telephone number listed on the supplement label or, if no
                  telephone number was listed, the emergency contact number listed in the
                  registry. To contact companies that did not have a telephone number listed
                  on their products’ labels or in the registry, we searched the Internet for
                  valid telephone numbers.
                  Structured Interviews With Representatives of Dietary Supplement
                  Companies. We conducted structured interviews with either the
                  company’s emergency contact or the manager in charge of registration
                  with FDA. We made three attempts to contact each company and reached
                  91 company representatives. Five declined to complete the interview. In
                  total, we interviewed representatives of 86 of the 106 companies, resulting
                  in an 81-percent response rate.
                  We asked each representative to verify the company’s registration
                  information, including the company’s name, full address, emergency
                  contact name, and emergency contact telephone number. We asked the
                  representative to provide contact information for any facilities that
                  manufactured the supplement in our sample. If the company or one of its
                  manufacturing facilities was listed in the registry, we considered the
                  company to be registered.
                  If the contact information provided by the company representative did not
                  match the information in the registry, we questioned the representative


Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   6
                  about the discrepancy and asked when the information had changed. If we
                  could not initially find a company in the registry, we asked the company
                  representative about alternate company names and addresses. We then
                  searched the registry again to determine whether the company was
                  registered under an alternate name. We also asked company
                  representatives about their familiarity with the registry.
                  Finally, we asked about the functions performed by the company with
                  respect to the sampled dietary supplement (i.e., manufacturing,
                  distributing, warehousing). We did not independently verify each
                  company’s self-reported function.
                  Analysis of Adverse Events Contact Information on Dietary Supplement
                  Labels. We analyzed the labels of 127 dietary supplements to determine
                  whether they were in compliance with Federal regulations regarding
                  required adverse events contact information. We determined that a label
                  provided complete contact information if it included either a complete
                  telephone number or a complete address for a responsible party.
                  Limitations
                  Because no comprehensive list of dietary supplements or dietary
                  supplement companies exists, the universe of supplements and companies
                  is unknown. Therefore we were unable to draw a random sample of
                  dietary supplements and companies and do not generalize our findings to
                  all dietary supplement companies. Using self-reported information about
                  the companies’ functions, we determined whether companies were
                  required to be registered with FDA. Only FDA can make a final
                  determination about whether each company was required to register.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.

                  FINDINGS
                  Twenty-eight percent of contacted companies failed to
                  register with FDA as required
                  Dietary supplement companies must register with FDA if they
                  manufacture, process, pack, or hold dietary supplements for consumption
                  in the United States, pursuant to the Bioterrorism Act of 2002. Of the
                  86 companies we interviewed, 79 had 1 or more facilities that were




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   7
                  required to register with FDA. 26 Of those 79 companies, 22 (28 percent)
                  did not have any facilities registered with FDA. Thirteen of these
                  companies were associated with products we purchased on the Internet
                  and nine with products we purchased in retail stores (see Appendix A).
                  FDA officials and other stakeholders told us that oversight of Internet
                  companies is particularly challenging because of the vast number of Web
                  sites and difficulty identifying those responsible for them.
                  Of the 86 companies we contacted, company representatives of 32 were
                  unaware of FDA’s registration requirements. Even among the
                  57 companies that did have registered facilities, 13 company
                  representatives we spoke with were unfamiliar with the registry. This
                  raises questions about whether registered companies are keeping their
                  contact information up to date. On the other hand, eight representatives of
                  companies that failed to register with FDA reported that they were familiar
                  with the registry.
                  Among companies in our sample that registered with
                  FDA, 72 percent failed to provide complete and
                  accurate information required in the registry
                  Of the 57 companies with registered facilities, 41 (72 percent) had
                  incomplete or inaccurate required contact information in the registry. 27
                  FDA regulations require companies to maintain complete and accurate
                  information in the registry so that it can locate them quickly in an
                  emergency. If a company relocates to a new address or has other changes,
                  it must update the registry with the accurate information within 60 days. 28
                  Sixteen companies had inaccurate addresses in the registry, but none
                  reported relocating within the 60-day window (see Chart 1).
                  Additionally, 34 companies with registered facilities did not provide
                  accurate emergency contact telephone numbers in the registry as required.
                  The emergency contact name, which is not required, was often inaccurate
                  as well. Thirty companies with registered facilities did not provide
                  accurate emergency contact names. At a large company with multiple
                  divisions, FDA may have trouble identifying and contacting a person who
                  is able to respond to an emergency if no emergency contact name is

                  26
                     These 79 companies were supplement manufacturers, distributors, warehousers, packagers,
                  or some combination thereof. We determined that seven companies were not required to
                  register because six were retailers and one was a wholesaler.
                  27
                     As part of registration, a company is required to provide a complete and accurate name,
                  address, and telephone number for the facility; the facility’s owner, operator, agent in charge,
                  and U.S. agent (for a foreign facility); and, if the facility is a subsidiary, the facility’s parent
                  company. In addition, an emergency telephone number must be provided for the facility or, in
                  the case of a foreign facility, the facility’s U.S. agent. 21 CFR § 1.232.
                  28
                     21 CFR § 1.234.

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                         8
                  provided. If a dietary supplement poses a public health threat, FDA
                  should be able to rely on the registry for contact information. In an
                  emergency involving a dietary supplement, it is critical that FDA be able
                  to quickly trace the source of the product. Incomplete emergency contact
                  information in the registry may cause a delay when FDA is tracing the
                  source of an unsafe supplement.
                  Chart 1: Dietary Supplement Companies With Inaccurate Required Contact
                  Information in the Registry (n=58)

                                             60
                       Number of Companies



                                             50
                                                       41
                                             40
                                                                                                34
                                             30
                                             20                                   16
                                             10                      4
                                              0
                                                   One or more Company name      Address    Emergency
                                                  required pieces inaccurate   inaccurate     contact
                                                     of contact                             telephone
                                                    information                               number
                                                     inaccurate                             inaccurate

                  Source: OIG analysis of data from FDA’s Food Facility Registry and interviews with dietary
                  supplement companies, September 2011.
                  Note: Categories are not mutually exclusive. FDA requires that companies provide a company name, a
                  physical address, and an emergency contact telephone number in the registry.



                  Twenty percent of dietary supplement labels in our
                  sample did not provide the required telephone
                  numbers or addresses
                  Federal law requires that dietary supplement labels include the telephone
                  numbers or complete addresses of the dietary supplement firms
                  responsible for receiving adverse event reports. 29 Consumers and medical
                  providers use this information to report adverse events. Of the 127 dietary
                  supplement labels in our sample, 26 did not include either the telephone
                  numbers or complete addresses of responsible parties. Of these
                  26 supplements, 17 also did not have responsible companies listed in
                  FDA’s registry. This raises questions about the ease of obtaining contact
                  information for these 17 companies.
                  Complete contact information on dietary supplement labels is essential to
                  enable consumers and their medical providers to report adverse events. If

                  29
                       21 U.S.C. § 343(y).

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                       9
                  a dietary supplement does not provide contact information on the label,
                  FDA may not learn of unsafe supplements in a timely manner.
                  Additionally, if information in FDA’s registry is inaccurate or incomplete,
                  FDA must rely on other sources of information to contact a responsible
                  company. Incomplete contact information on dietary supplement labels
                  may put FDA at a disadvantage in learning about and tracing the source of
                  unsafe supplements.




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   10
                  CONCLUSION AND RECOMMENDATIONS
                  In a public health emergency involving a dietary supplement, FDA’s
                  ability to quickly locate a company responsible for the supplement’s safety
                  is essential. FDA’s Food Facility Registry is intended to provide sufficient
                  contact information for dietary supplement companies in these
                  circumstances. In addition, a dietary supplement label must include a
                  telephone number or an address for a responsible company so that
                  consumers and others can report adverse events.
                  This review raises questions about the accuracy and utility of the registry
                  in emergencies and the availability of contact information on supplement
                  labels that could be used to report adverse events to the responsible
                  company. Twenty-eight percent of contacted companies failed to register
                  as required. Of those that did register, 72 percent failed to provide
                  complete and accurate information. Finally, 20 percent of dietary
                  supplement labels in our sample did not provide required adverse event
                  contact information.
                  To address the findings in this report, we recommend that FDA:
                  Improve the Accuracy of the Information in the Registry
                  Beginning in 2012, all dietary supplement companies must renew their
                  facilities’ registrations during defined periods every 2 years. 30 To improve
                  the accuracy of information in the registry, FDA could publicize this new
                  requirement and remind registered companies of the requirement to update
                  their information within 60 days of any change. FDA could accomplish
                  this by:
                        •    emailing reminders to companies’ registered email addresses,
                        •    presenting information on registration requirements at industry
                             meetings,
                        •    publishing reminders in trade and industry publications, and
                        •    posting reminders on the FDA Web site and listserv.
                  FDA could also consider testing the accuracy of the information in the
                  registry by regularly attempting to contact a sample of listed companies.
                  This would provide FDA with information on the registry’s accuracy and
                  help determine whether the registry can work as intended in an emergency.




                  30
                       21 U.S.C. § 350d(a)(3).

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)     11
                  Seek Statutory Authority To Impose Civil Monetary Penalties
                  on Companies That Do Not Comply With Registration
                  Requirements
                  In 2009, OIG recommended that FDA consider seeking authority to
                  impose civil monetary penalties on food facilities, including dietary
                  supplement companies, that either fail to register or fail to provide
                  accurate information. 31 Civil monetary penalties may provide added
                  incentive for companies to comply with registry requirements. FDA
                  previously expressed support for this recommendation and indicated that it
                  would be open to pursuing this authority in the future. 32
                  Educate the Dietary Supplement Industry About Registration
                  and Labeling Requirements
                  Such education could lead to an increase in the number of dietary
                  supplement companies that register and comply with labeling
                  requirements. FDA could focus on educating the dietary supplement
                  industry about which types of companies are required to register. FDA
                  could also educate companies about the requirement for labels to include a
                  complete telephone number or address for reporting adverse events. FDA
                  could consider providing education through industry and FDA Web sites,
                  as well as trade association publications and meetings.




                  31
                       OIG, FDA’s Food Facility Registry, OEI-02-08-00060, December 2009.
                  32
                       Ibid.

Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   12
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments on the draft report, FDA concurred with all of our
                  recommendations. FDA acknowledged that its ability to ensure the safety
                  of dietary supplements used by consumers should be improved and
                  described its plans to address our recommendations.
                  FDA concurred that it should take steps to improve the accuracy of the
                  Food Facility Registry. It noted that FSMA requires registrants to renew
                  their registrations every 2 years, and the agency expects that this will
                  improve the accuracy of the registry. FDA also said that it is preparing
                  updated informational and guidance documents related to the biennial
                  registration requirement and will make these available to facilities
                  required to register.
                  FDA also concurred with our recommendation to seek statutory authority
                  to impose civil and monetary penalties on dietary supplement
                  manufacturers or their facilities that fail to register.
                  Finally, FDA concurred with our recommendation to educate the dietary
                  supplement industry about registration and labeling requirements. In its
                  comments, FDA focused on educating currently registered companies
                  about the requirement to renew their registrations biennially but did not
                  specify its plan for educating unregistered companies about the
                  requirement to register their facilities. FDA plans to send letters to major
                  trade associations and trade show providers regarding the new requirement
                  to renew registrations biennially. In addition, FDA noted that in 2011, it
                  produced a handout for industry regarding labeling requirements for
                  adverse event reporting.
                  We ask that in its final management decision, FDA clarify its plans for
                  identifying and registering unregistered facilities and increasing
                  compliance with registration requirements overall. For the full text of
                  FDA’s comments, see Appendix B.




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   13
                  APPENDIX A:
                  Information on Sampled Dietary Supplements and Companies

                  Table A-1: Sampled Supplements by Source of Purchase and Supplement
                  Type
                                                     Weight Loss            Immune Support
                  Supplement Source                                                                              Total
                                                     Supplements               Supplements
                  Retail                                        32                          35                     67
                  Internet                                      28                          32                     60

                     Total                                      60                          67                    127
                  Source: Office of Inspector General (OIG) analysis of sampled dietary supplements, September
                  2011.



                  Table A-2: Companies Contacted and Their Registration Status
                                                                     Required To Register
                  Company Type                        Contacted                                  Registered With FDA
                                                                                With FDA
                  Retail                                      47                       46                          37
                  Internet                                    39                       33                          20

                     Total                                    86                       79                          57
                  Source: OIG analysis of sampled dietary supplements, September 2011.




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                         14
                  APPENDIXB
                  Agency Comments

                                                                                            ,   .. -r;··--•..




                                                                                                   Food and Ol\lg Admlnlstn!IJon
                                                                                                   Sliver Spring MD, 20993



                        nate:          August 3, 2012

                        To:            Inspector General

                        From:          Acting Associate Commissioner for Policy and Planning

                        Subject:       FDA's General Comment to 010 Draft Report on Dietary'Supplements:
                                       Companies May Be Difficult to Pind in an Emergency

                        FDA is providing th:e attached general comments to the Office of Inspector General's draft report
                        entitled, Dietary Supplements.: Companies May Be Di}ficult to Find In an Emergency
                        (OB!-OI- 11-00211),                                        .

                        FDA appreciates the opportunity to review and comment on this draft report before it is
                        published.

                                                                                /S/
                                                                     David H. Dorsey


                         Attacluncnt




           i
           I.




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)                                        15
                  APPENDIX B (CONTINUED)




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   16
                  APPENDIX B (CONTINUED)




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   17
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Joyce Greenleaf, Regional
                  Inspector General for Evaluation and Inspections in the Boston regional
                  office, and Russell Hereford, Deputy Regional Inspector General.
                  Melissa Hafner served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional office
                  who contributed to the report include Jessica Fargnoli, Danielle Fletcher,
                  Maria Maddaloni, Jesse Valente, Alyson Cooper, and Tim Chettiath; other
                  regional office staff who contributed include Maria Balderas and
                  Margarita Rodriguez; central office staff who contributed include Heather
                  Barton, Kevin Farber, and Debra Roush.




Dietary Supplements: Companies May Be Difficult To Locate in an Emergency (OEI-01-11-00211)   18
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
